OIG Investigative Reports March 02, 2010 - Lebanon, VA Couple Pled Guilty to Fraud
Skip to main contentAbout UsContact UsFAQs Language Assistance Englishespañol中文: 繁體版Việt-ngữ한국어TagalogРусский
U.S. Department of Education
Search for:
Toggle navigation
U.S. Department of Education
Student Loans
Grants
Laws
Data
About ED
OFFICES
Home
Reports & Resources
Programs/Initiatives
News
Office Contacts
Investigative Report
The United States Attorneys Office
Western District of Virginia
Department of Justice
United States Attorney Timothy J. Heaphy
Western District of Virginia
FOR IMMEDIATE RELEASE
Tuesday, March 2, 2010
CONTACT: Brian McGinn
PHONE: 540-857-2974
FAX: 540-857-2179
EMAIL: Brian.McGinn@usdoj.gov
www.usdoj.gov/usao/vaw
LEBANON, VA COUPLE PLED GUILTY TO FRAUD
Brian And Miranda Salyer Stole More Than $173,000
ABINGDON, VIRGINIA -- A couple from Lebanon, Virginia, who bilked several banks out of more than $173,000 by receiving 15 fraudulent education loans, pled guilty yesterday in the United States District Court for the Western District of Virginia to conspiracy to commit fraud.
Brian Salyer, 32 and his wife, Miranda Salyer, 29, both of Lebanon, Virginia, waived their right to indictment and pled guilty yesterday to an information. Brian Salyer pled guilty to one count of conspiracy to commit fraud and one count of aggravated identity theft. Miranda Salyer pled guilty to one count of conspiracy to commit fraud.
Educational loans allow motivated people the opportunity to better themselves
at institutes of higher learning. Those loans are not meant to be criminal income
streams for con-artists like the defendants in this case, United States
Attorney Timothy J. Heaphy said today. It is our duty to protect the lending
institutions who provide opportunities to students across the country from falling
victim to schemes like the one uncovered in this case.  I am
proud of the work of OIG special agents in holding the Salyers accountable for
their criminal actions, said Mary Mitchelson, acting Inspector General
of the U.S. Department of Education.  We will continue to aggressively
pursue those who misappropriate education funds. America's students and taxpayers
deserve nothing less.
According to a statement of facts entered today in court, beginning in 2004 and continuing until 2007, Brian and Miranda Salyer submitted 15 fraudulent student loan applications to various lending institutions. These applications caused false pay outs of more than $173,668 to be received by the couple. The loan applications were submitted to lenders in Colorado, Massachusetts, Florida and New York.
In order to secure many of the fraudulent loans, the couple used a fraudulent signature of Miranda Salyer’s grandfather. The grandfather had previously agreed to co-sign for one student loan for hisgranddaughter, but not multiple loans. In addition to forging the Miranda’s grandfather’s signature, the couple also submitted information from his drivers license without his consent.
The investigation of the case was conducted by the U.S. Department of Education Office of Inspector General. Assistant United States Attorney Ashley B. Neese is prosecuting the case for the United States.
Top
Printable view
Last Modified: 03/10/2010
How Do I Find...
Student loans, forgiveness
College accreditation
No Child Left Behind
FERPA
2015 Budget Proposal
FAFSA
More >
Information About...
Transforming Teaching
Family and Community Engagement
Early Learning
K-12 Reforms
More >
Connect
Facebook
Twitter
YouTube
Email
RSS
Google+
More >
MISUSED
FOIA
OIG Fraud Hotline
Our mission is to promote student achievement and preparation for global competitiveness by fostering educational excellence and ensuring equal access.
Student Loans
Repaying Loans
Defaulted Loans
Loan Forgiveness
Loan Servicers
Grants & Programs
Apply for Pell Grants
Grants Forecast
Open Grant Competitions
Find Grant Programs by Eligibility
Laws & Guidance
No Child Left Behind
IDEA
Civil Rights
Significant Guidance
Data & Research
Education Statistics
Integrated Postsecondary Education Data System
Nation's Report Card
What Works Clearinghouse
About Us
Contact Us
Jobs
News
FAQs
Budget, Performance
Notices FOIAPrivacySecurityInformation qualityInspector GeneralWhitehouse.govUSA.govBenefits.govRegulations.gov